i

No.

Supreme Court of tfje »ittte& States;
RYAN SUMLIN,
Petitioner,
vs.
UNITED STATES OF AMERICA,
Respondent

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
APPENDIX
COMES NOW PETITIONER Ryan Sumlin and submits the attached appendix
pursuant to Supreme Court Rules.

Ryaxraumlin
Petitioner
62250-060
RO. Box 2068
Inez, KY 41224

Date:

20

i I

'

K

1

APPENDIX A
ORDER & JUDGMENT OF THE COURT OF APPEALS
FOR THE SIXTH CIRCUIT
DATED 4-21-20

ft I

United States v. Sumiin
United States Court of Appeals for the Sixth Circuit
April 21,2020, Decided; April 21,2020, Filed
No. 18-3819
Reporter
956 F,3d 879 *; 2020'U.S. App, LEXIS 12744 **; 2020 FED App. 0120P (6th Cir.) •**; 112 Fed. R. Evid, Sen,-.
(Callaghan) 257
UNITED STATES OF AMERICA, PlaintiffAppellee, v. RYAN K. SUMLIN, DefendantAppellant.

|*882i 1***1] JOHN K. BUSH, Circuit Judge.
Ryan Sumiin appeals his conviction for distribution
of drugs that caused the death of Carrie Dobbins, in
violation of 21 U.S.C. §§ 841(a)(1) and (b)(1)(C),
which carries enhanced penalty provisions. Sumiin
argues that the district court should have excluded
Prior History: (**1] Appeal from the United
evidence obtained from a search of his residence
States District Court for the Northern District of
because the affidavit supporting the search warrant
Ohio at Akron. No. 5:15-er~00319-3—Donald C.
was invalid. He also contends that Amanda Kelly
Nugent. District Judge.
(Carrie's sister and Sumlin's ex-girlfriend who had
United States v. Sumiin, 2017 U.S. Dlst. LEXIS
bought drugs from him) should not have been
139906 (N.D. Ohio, Aug. 29, 2017)
allowed to
provide certain testimony about
his past relationship with Carrie.1 Finally. Sumiin
claims that there was insufficient evidence to show
that he distributed the drugs that caused Carrie's
Counsel: ON BRIEF: Mark Weitle. Louisville,
death,
Kentucky, for Appellant.
For the reasons outlined below, we find that (1) the
district court properly denied Sumlin's suppression
Matthew B. Kail, UNITED STATES
motion, given that the affidavit established a
ATTORNEY'S OFFICE, Cleveland, Ohio, for
sufficient |**2| nexus between his drug trafficking
Appellee.
activity and residence; (2) the court properly
admitted Kelly's testimony, as it was intrinsic proof
that was relevant for providing background
information and contextualizing the government's
Judges; Before: GiBBONS, KETHLEDGE,
case
against Sumiin; and (3) sufficient evidence
BUSH, Circuit Judges.
supported the jury's verdict that Sumiin distributed
the drugs that caused Carrie’s death. Therefore, we
AFFIRM.
Opinion by: JOHN K. BUSH
1.

Opinion

1 We refer by fiitn name to Carrie Dobbins and her mother, ltd if
Dobbins, to distinguish between them,

Sumiin Exhibit A1

Page 2 of I!
656 F,3d 679, *882; 2020 U.S. App. LEXIS 12744. “2; 2020 FED App. 0120P (6th Cir,), ***2

This case arises from the fatal drug overdose of
Carrie Dobbins in Akron, Ohio, on March 28,2015.
Carrie's mother, Julie Dobbins, found her
daughter's lifeless body in the basement of her
home. For years. Carrie had struggled with heroin
addiction, bn the day of her death, Carrie had
ingested a lethal level and combination |*8S3J of
drugs. It was a mixture that has tragically become
far loo common—heroine and fen t any I.
The chain of events leading to the overdose began
in the early morning hours of that day. Specifically,
.at 6:09 a.m., Carrie texted the telephone number
(330) 815-4534, asking if ”TJ" could come "see"
her. The number that Carrie texted was Sumlin’s
cellphone number, according to her sister, Amanda
Kelly, who later cooperated with the police
investigation. Kelly also identified "TT as
Surnlin, |**3| a heroin dealer who employed this
alias when dealing drugs. Kelly recounted that ”T.r
had used a Facebook account under the name
”RYO Boyer" and that the "About" section of this
account listed "facebook.comfn-ansumlm" as the
contact email. Kelly knew this information about
Surnlin because she was his ex-girlfriend and had
purchased heroin from him. She also told police
that Sumiin had dealt heroin to Carrie in the past.

was parked in the driveway. Upon entering the
house, Kelly saw Sum tin with Carrie in the living
room,
Following Carrie's death, and between the span of
April 24, 2015 and April 27. 2015, Akron Police
Department Detective Mike Schmidt visited an
address believed to be Sumlin’s residence on
Firestone Boulevard in Akron. Detective Schmidt
saw a Chrysler 300—the same model of car seen by
Amanda Kelly and Julie Dobbins on the morning of
March 28, 2015—parked in the driveway of the
Firestone Boulevard address. Although the car was
registered to Sumlin's mother, police records
confirmed that Sumiin had been arrested while
driving the vehicle in 2014. Further investigation
revealed that the utilities of the Firestone Boulevard
residence were paid for by Sumlin's then-current
girlfriend. Also, according to a police report
stemming from an unrelated assault complaint filed
in April 2015, Surnlin was identified as living there
with this girlfriend. Additional police records from
prior years, relating to Sumlin's arrests for the
possession of heroin, the possession of cocaine,
parole violations, failure to comply with police, and
willful fleeing, further connected him to the J**5|
Firestone Boulevard property.

In response to Carrie's text, Sumiin texted back
"how much," to which she responded "35." (R. 177:
Schmidt Trans., PagelD 1404-14 & Exhibit 140,
PagelD 1655). Sumiin texted his agreement,
notifying Carrie that he was "onjj [his] way” to her
mother’s house. (/</.). Carrie [
3| then texted
for Sumiin to wait until iter mother had left for
work, which would be around 6:45 a.m. Carrie also
-instructed hint to park on the side street next to the
house to avoid detection.

Aware of these facts, the police turned their focus
on Sumiin as a suspect. Based on his personal
experience and training.2 Detective Schmidt
prepared an affidavit using the information
obtained from the police investigation, including
interviews with Julie Dobbins, Amanda Kelly,
Dr. George Sterbenx/ and Akron Detective
Benjamin Surblis/ to obtain a search warrant

When Julie Dobbins left for work that morning, she
noticed a dark-colored Chrysler, matching the
description of Sumlin's car, parked on the side
street next to her house. At approximately 8:45 a.m.
that same morning, Kelly arrived at her mother's
house, A vehicle that Kelly identified as Sumlin's
car-—a Chrysler 300 [**4] with tinted windows—

experience wish the Akion Police Dcponmem. At the time of the

2 Detective Schmidt’s qualifications included eighteen veai-s of
victim's death. Detective Schmidt was assigned to the Akron
Narcotics Detail.
?Dr, Stcrhenz is the Chief Deputy Medical Examiner with the
Summit County Medical Examiner's Office. On March 2ft, 2015. he
perforated an autopsy on Dobbins.
* Detective Surblis was; die second of She Akron detectives so arrive
al the scene of Carrie's death on Maivh 25, 2018. At i)k scene, he
found evidence of Carrie's recent dmg use, including a hypodermic

Sumiin Exhibit A2

* I

Page 3 ofl I
&56 :-'.3d 679, *883; 2020 U,S. App. LEXIS 12744, ”5; 2020 FED App. 0120P (6th Cif ), ***4

1*884] for the Firestone Boulevard residence,

August 30, 2017, Finding the search |***5|
warrant valid, the district court concluded that the
The affidavit soughs authority to search for any government’s supporting affidavit established
evidence relating to drag trafficking, which could a 1**7] sufficiently strong nexus between Sumlin's
include heroin, currency, records and documents, residence and the drug activities being investigated
and cellular telephones. Detective Schmidt was by the police. Because the government had shown
particularly focused on locating the (330) 815-4524 probable cause for the search warrant, the district
telephone, which Sutniin used to communicate with court held that Sumlin’s rights tinder the Fourth
Dobbins on the morning of March 28, 2015. On Amendment, as applied to the states by the
April 27. 2015, the warrant was approved by Akron Fourteenth Amendment, had not been violated.
Municipal Court Judge deny K. Larson. The Alternatively, the court held that even if the
following day. the Akron police executed the affidavit had not provided a sufficient basis for
search warrant. Officers seized a number of items, probable cause, the evidence should not be
including approximately 190 grams of then- excluded based on United States v, Leon, 468 U.S,
suspected cocaine (which upon further testing, was 897, 104 S. Ct. 3405, 82 L. Ed. 2d 677 (1984).
determined to be fentonyl), 48 grams of suspected becat)se it s(ill wouJd have been reaso„a6>,e for the
heroin; drug trafficking paraphernalia (i.e. multiple police to rely on the warrant in good faith.
scales, a press, a grinder, glassware J**6| with
residue): $11,920 cash in one location; S2.482 in Following the district court’s denial of Sumlin’s
another location; and eight cellular telephones.
motion to suppress. Sumltn was tried on April 2430, 2017. and a jury convicted him of all three
On August 26, 2015, a grand jury initially indicted counts charged on the indictment. On May 24,
Sutniin for drug trafficking. On August 17, 2016, a 2017, the district court sentenced Sumltn to a term
grand jury returned a superseding indictment of life imprisonment, as well as a six-year term of
against Sumltn and several others. After Sumlin's supervised release. In accordance with the courts
co-defendants pleaded guilty, the grand jury rulings, an amended judgment was entered on May
returned a supplemental indictment against Sumltn. 26,2017. This timely appeal followed.
This indictment charged Sumltn with the following:
(1) distribution of drags on March 28, 2015 that
caused Carrie's death, in violation of 21 U.S.C. 11.
§§841(a)(1) and (b)( 14(C), which also triggered the
enhanced penalty provision for drug distribution
causing death: (2) possession of fentanyl with the
intent to distribute on April 28, 2015 , in violation A, Validity of the Search Warrant
of 21 U.S.C. §§ 841(a)(1) and (b)(1)(B); and (3)
possession of heroin with the intent to distribute on Sumltn challenges the search warrant as inadequate
October 9, 2015, in violation of 21 U.S.C. under the Fourth Amendment, which provides that
"no Warrants [*885] shall issue, but upon
§§84 1(b)(1) and (b)(1)(B).
probable cause, supported by Oath or affirmation.
On June 18, 2017. Sumltn fded a motion to and particularly |**8] describing the place to be
suppress the government's evidence that provided searched, and the persons or things to be seized."
the foundational basis for these charges. After U S, Const, amend, IV. This constitutional
Sutniin waived a hearing on his suppression protection, applicable here through the Fourteenth
motion, the district court denied the motion on Amendment, requires that a warrant to search a
residence be supported by an application showing
probable
cause. The affidavit supporting the
net-tiic ami $poofj ami a small paper eimiattier v-< insistent whh n
warrant must contain facts that demonstrate "a fair
bindle.

Sumlin Exhibit A3

» I

Page 4 of H

658 F.3d 879. *688; ,2020 U.S. App. LEXIS 12744, **8; 2020 FED App 0120P (6th Cir.), *‘*5

probability that evidence of a crime will be located
on the premises of the proposed search." United
States v. Jenkins, 396 F.3d 751, 760 {6th Cir.
2005); United States v. Frazier, 423 F.3d 526. 531
(6th Cir. 2005). If "a government agent fails to
support his application with this showing of
probable cause, a judge should refuse to issue the
warrant" Untied Stares v. McCoy* 905 P.3d 409.
415 (6th Cir, 2018), "Our review of the sufficiency
of the evidence supporting probable cause is
limited to the information presented in the fourcomers of the affidavit}.]'* Frazier, 423 F.3d at 531.
Nonetheless, because "the probable cause standard
is a J***6j 'practical, non-technical conception’
that deals with the 'factual and practical
considerations of everyday life," Frazier, 423 F.3d
at 531 (citation omitted), a finding that probable
cause exists can "depend[] on the totality of the
circumstances," Id

the affidavit established probable cause to believe
that the evidence would be found at the place
ciled." United States v. Radrigttez-Sttazo, 346 F.3d
637, 643 (6th Cir. 2003) {internal quotation marks
omitted).
A
magistrate’s probable cause
determination is entitled to "great deference," id.
and "the evidence must be viewed in a light most
likely to |**10J support the decision of the district
court." Frazier, 423 F.3d at 531 (citation omitted);
see United States v. Heath, 259 F.3d 522, 528 (6th
Cir. 2001).
We agree with the district court that Detective
Schmidt's affidavit established a sufficient nexus
between Sumlin’s drug-trafficking activity and his
Firestone Boulevard residence to justify’ the
magistrate judge’s finding of probable cause. The
probable cause analysts involves several
components. The govern mem's affidavit needed to
demonstrate probable cause (1) that Sumiin was
trafficking drugs: (2) that Sumiin lived at the
Firestone Boulevard residence; and (3) that
evidence of drug trafficking would be found at
Sumtin's residence. The government accomplished
all three tasks in sufficient detail.

Sumiin challenges the finding of probable cause on
the grounds that Detective Schmidt's affidavit
failed to include facts establishing a sufficient
nexus between his residence and his suspected
drug |*~9] distribution activities. In particular, he
compares the instant affidavit with the one at issue
In United States y; Brown, 828 F.3d 375 (6th Cir. 1***7} First, as Sumiin appears to concede, the
2016), which this court ultimately determined affidavit set forth probable cause to show he was in
lacked a sufficient nexus. Specifically, referencing the Illegal drug trade. Related ly, the affidavit,
Brown, Sumiin argues that the affidavit in this case which includes information 1*886} and medical
"lackJed] any mention of any illicit activity" at the confirmation of Carrie's death, shosvs that she died
Firestone Boulevard residence. (Appellant Sumiin on March 28, 2015 of a drug overdose. Connecting
Br, at 15-19), Sumiin also argues that this omission these pieces, evidence on Carrie’s cellphone
bars the application of the Leon good-faith established that she had exchanged text messages
exception in the alternative. We need not address with "TJ"—Sunt tin’s confirmed drug alias—early in
the Lean exception here because, as discussed the morning of March 28, 2015. Though the two
below, we hold that the search warrant complied used coded language, it is reasonable to
believe |**111 that during this conversation,
'with the Fourth Amendment.
Sumiin agreed to bring drugs to Carrie. The
When evaluating a district court’s ruling on a affidavit also includes witness testimony'of the
motion to suppress evidence, "we review she trial decedent’s sister, Amanda Kelly, who not only had
court’s factual findings for clear error and Sts legal purchased drugs from Sumiin, but also had been his
conclusions de novo." Frazier. 423 F.3d at 531. girlfriend. Based on her past involvement with
"The standard of review for determining the Sumiin, Kelly confirmed that he was in fact a drug
sufficiency of the affidavit is whether the dealer. Furthermore, according to Kelly, she saw
magistrate had a substantial basis for finding that Sumiin in the living room of her mother’s residence

Sumiin Exhibit A4

Page 5 of I!
958 F 3d 879, *886; 2020 U.S, App. LEXiS 12744, **11; 2020 FED App, 0120P <6th Glr.), *‘*7

with her sister at approximately 8:45 a.m. on the
morning of March 28, 201$, and his car was in the
driveway of her mother's residence. The affidavit
also outlines that "TJ’s" cellphone number,
Faeebook account, automobile, and picture were all
connected to Sumiin. Collectively, these facts in the
affidavit establish probable cause to believe that
Sumiin trafficked drugs.

sufficient to demonstrate a nexus between the
criminal activity and the suspect residence to
validate the warrant—even "when there is
absolutely no indication of any wrongdoing
occurring at that residence. . ,
United States v,
Coward, 188 F. App’x 355, 358-50 (6th Cir. 2006).
In fact, we have even gone so far to determine the
existence of "a nexus between a defendant's
residence and illegal drue activity with no facts
Secondly, we agree with the government and the indicating ,hat the defendant was dealing drugs
district court that the affidavit showed specific from his residence." McCoy. 905 F.3d at 418
detail to establish probable cause that Sumiin lived (emphasis added). Instead, we determined that a
at the Firestone Boulevard residence. Sumlin's car "defendant’s record of past drug convictions
(registered to his mother), which had been seen at couplcd with rccem> re|iab)c evidence of drug
the residence of Julie Dobbins (Carrie's mother) on
is suftlcknt to establish the nexus. Id: see
the morning of March 28, 2015, was subsequently also United States v. Miggitis, 302 F,3d 384, 393
observed by police to have been parked in the (6th Cir. 2002) (finding probable cause existed to
driveway
of the Firestone Boulevard support search of defendant's residence based on
property on multiple days following Carrie's death. affidavit's outlining of defendant’s prior cocaineThe utilities at the residence were under the name related convictions coupled with officers' same-day
of Sumlin's then-girlfriend. Moreover, earlier that observations of him signing for a package
month, police had responded to a domestic containing j*8S7| a large amount of cocaine
disturbance at the residence relating to a fight delivered at someone else's residence).
between Sumiin and his then-girlfriend. And
finally, the mother of Sumlin’s then-girlfriend told Based on this authority, the government's affidavit
police that Sumiin lived in the Firestone Boulevard established the requisite nexus. It provided facts
residence. Collectively, this evidence not only showing that Sumiin was a drug trafficker and that
seems sufficient, but appears overwhelming in its he resided at Firestone Boulevard. As
support of the probable cause determination that Detective 1**14) Schmidt related in the affidavit.
Sumiin lived at the subject property of the search he knew from his personal experience and training
warrant
that drug dealers like Sumiin routinely keep drugrelated items (i.c. records of their drug transactions,
Given these facts in the affidavit, we also agree equipment, supplies, and weapons) at their
with the government and the district court that the residences. Akron police officers also observed
affidavit established probable cause to believe that Sumlin's car—the same one seen by witnesses
evidence of Sumlin's drug trafficking would be parked next to the home of Carrie's mother on the
found at the Firestone Boulevard residence. "j!]n morning of March 28, 2015—parked at the
the case of drug dealers, evidence is |***8| likely Firestone Boulevard residence multiple times
to be found where the dealers live." United States v. following Carrie’s death. We agree with the
Jones, 159 F.3d 969, 975 (6th Cir. 1998) (internal emphasis placed by the district court on the timing
quotation omitted). Therefore, "an affidavit of the text messages exchanged between Carrie and
containing credible, verified allegations of drug Sumiin, Namely, the back-and-forth exchange,
trafficking, verification that said defendant lives at which occurred within a span of twenty-nine
a particular residence, combined with the affiant minutes.5 suggested that |***9j Sumiin was at his
officer’s experience that j**13J drug dealers keep
evidence of dealing at their residence," etui be
* KdIc th»il Carrie's reijwcst lor tlntgs arr4 SumHnV

Sumiin Exhibit A5

Page 6 of II
956 F,3d 879, *887; 2020 U S. App. LEXIS 12744, "14; 2020 FED App. 0120P (8th Cir.). **‘9

home when Carrie texted that morning, and then
necessarily was leaving from his home to deliver
the drugs to Carrie. Finally, the Akron police were
aware of recent evidence that Sumlin was drug*
dealing, as stated in the affidavit. Connecting the
pieces of this analysis, there was a sufficient nexus
existing between Sumlin's drug trafficking-related
activity and his residence.

Julie Dobbins on the morning of Carrie's death in
that house was the same car parked [**16} later
that day at the Firestone Boulevard property.
Consequently, the police had probable cause that
additional evidence of Sumlin’s drug trafficking,
including the cellular telephone linked to the (330)
815-4515 number used to text Dobbins, would be
found at the Firestone Boulevard property.

Furthermore, we agree with the district court that
Sumlin’s reliance on United States v. Brown. 828
F.3d 375. 383-84 (6th Cir. 2016) is
misplaced. j**J5j In Brawn, wc found the
government's search warrant on defendant's
residence to be invalid, given that the affidavit
"contained no evidence that {defendant] distributed
narcotics from his home, that he used it to store
narcotics, or that any suspicious activity' had taken
place there." Id. at 382. (emphasis added). The
affidavit also lacked any evidence showing that
defendant had sold drugs in the recent past, that he
had a car directly tied to his drug trafficking
activities, that such car was parked at his suspected
residence, or in fact, that there were any' suspicious
communications tying his criminal activities to the
suspect residence.

|*888) The district court properly denied Sumlin’s
motion to suppress the search warrant for his
residence, because it is clear that the "four corners
of the search warrant affidavit" establish a
sufficient nexus between Sumlin’s residence and his
criminal activity of drug dealing, id. at 380.
|***10| Because Detective Schmidt's affidavit
established a sufficient nexus between Sumlin's
residence and the criminal activity, there was no
Fourth Amendment violation.

Here, by contrast with Brown, there was evidence
showing a connection between Sumlin's alleged
drug trafficking and the Firestone Boulevard
property. We agree with the district court that the
timing of the text message exchange between
Sumlin and Carrie suggested that Sumlin was
coming from the Firestone Boulevard residence.
Equally, there was substantial reason to believe that
Sumlin lived at the Firestone Boulevard property
and that the car that was spotted at the residence of

Sumlin appeals the district court's decision to admit
Amanda Kelly's testimony relating to the scope of
her past relationship with him. He argues that the
testimony was not intrinsic to the case because it
showed no connection to his alleged drug dealings
with Carrie Dobbins. Furthermore, Sumlin argues
that the testimony should have been evaluated and
found inadmissible under a Federal Rule of
Evidence 404(b) analysis, given that the
evidence |**17j was not probative of a material
issue in the case, but instead, was inadmissible
character evidence. Rebutting these claims, the
government advances that Kelly's testimony related
to her past use of drugs and her purchases from
Sumlin was proper background evidence and
inextricably intertwined with the rest of her
testimony. In the alternative, the government argues
that such evidence would be properly admitted
even under Rule 404(b). The government has the
better of the argument.

response liras he would bring Iwr dings, nceumd between 6:09 a m.
and'6:18 a m. Also, at precisely 6:14 a m. Sumlis: texted "on.my |sit|
way." Co which Dobbins responded that be should wait unlit her
mother had departed for worth (.it. 177: Schmidt Trans.. Pagein
f 404-14 & l:\hiblt 140, S’sjtt'tD 16S5). At 6:24 a tn. ami 6:57 a m..
Currie received two short telephone calls from Stmltn, finally. ,11
6:58 a m.. she sem Itim one last message indicating that her mother
would be leaving in a couple of minutes. Ai approximately 6:45 a
in . as she left for wort, Julie Dobbins saw a car matching Sumlin's
ear description partied on the side of her home with its lights off,

B. The Admission of Amanda Kelly ’s Testimony

I. "Relevancy” under FRE 401 and FRE 402

Sumlin Exhibit A6

< I

Page 7 of 11
956 F.3d 879, ‘888; 2020 US App. LEXIS 12744, **17; 2020 FED App. 0120P (6th Cir,), *“10
We review a district court's decision to admit
testimony and other evidence under an abuse of
discretion standard. United States v. Toccn, 200
F.3d 401, 414 (6th Cir. 2000); see United States v.
Bonds, 1'2 FJd 540, 554 (6th Cir. 1992). "An abuse
of discretion exists where the reviewing court is
firmly convinced that a mistake has been made.”
United States r, Whittington* 455 F.3d 736. 738-39
(6th Cir. 2006); see United States v. Williams, 952
F.2d 1504, 1518 (6th Cir. 1991), "An erroneous
admission of evidence that does not affect the
‘substantial rights' of a party is considered harmless,
•and should be disregarded.** United States v. Cope,
312 F.3d 757, 775 (6th Cir. 2002) (quoting Gibson
v. United States. 271 F.3d 247, 254 (6th Cir.2001)).
Furthermore, "[tjhe standard for relevancy is
extremely liberal." United States v. Whittington,
455 F.3d 736, 738-39 (6th Cir. 2006) (internal
quotations omitted). "jEJvidence having am
tendency to make the existence of any fact that is of
consequence to the determination of the action
more probable or less probable titan it would be
without the evidence* is relevant." Robinson v,
Runyon, 149 F.3d 507, 512 (6th Cir. 1998) (quoting
Fed. R. f***U| F.vid.
401). ’jE'jvcn if a
district court believes the evidence Is insufficient to
prove Use ultimate point for which it is offered, it
may not exclude the evidence if it has the slightest
probative words." DXS, Inc. v. Siemens Med. Svs.,
Jttc., 100 F.3d 462, 475 (6th Cir. 1996) (internal
quotations omitted).
Given these directives, we deem Amanda Kelly’s
testimony about her past drug-related and personal
relationship with Sumlin, to be relevant, Kelly was
Carrie's sister, Sumlin's former client, and also his
former girlfriend. Kelly testified that she saw her
sister with Sumlin at her mother's residence at
approximately 8:45 a.m. on March 28. 2015. Kelly
also testified that Carrie had abused drugs in the
past and continued to do so, and that Sumlin was a
drug dealer, who had routinely delivered drugs to
her at her mother's same residence in the past. Prior
to the introduction of this testimony. Sumlin’s
attorney objected to the line of questioning on
1*8891
relevancy grounds. However, the

government offered a strong foundation for the
testimony’s relevance, explaining that this evidence
was necessary both to contextualize the relationship
between Kelly and .Sumlin. and to explain hovv
Kelly could identity "T.T” the drug dealer, as
Sumlin.
The
government
also
explained
that
the evidence was relevant to Kelly's
motives for testifying. After Sumlin's attorney
eventually conceded that her client was a drug
dealer and had had past relationships with both
Carrie and Kelly,6 the district court determined that
Kelly's testimony was relevant. Nonetheless, the
court also agreed to give the jury a limiting
instruction as to how to consider the testimony at
the beginning of Kelly's testimony and during its
jury charge,
Furthermore, even if Kelly’s testimony alone would
havc bcen insufficient to prove Sumlin’s conviction
l!ndcr ^.1 U;S.C. §§ 841(a)(1) and (h)(1)(C), as
discussed above, this court’s ’’relevance threshold is
very low under Rule 401, |a]nd ... the government
is permitted to build an incremental ease."
W'tom/igroH, 455 F.3d 736, 739. And here, simply
because Kelly's !***«) testimony may or may
no1 Prove Sum,»n,s crime* ”does nM mean,
necessarily" that the contextualizing evidence Kelly
provides |**20| is irrelevant. Id. Therefore.. we
conclude that the district court did not abuse its
discretion in admitting Kelly’s testimony,

m tt,,- aionct ovri coisetudmg ihai Kciiy*x testimony was
relevant, the fotkming exchange occurred between the judge and
SumUn’s defense counsel:

THE COURT; Whafti the defense hew. Kh$nd»?
MS. KOTNJK: 1:or lhat witness or *
THE COURT: In general I mean, lisicned to the opening
statements, fan *
MS. KOTSNIK: Ihe drugs tha* he provided cue not the drugs
that killed hci.
THE COURT: So you're not disptflmg the feet that they hail a
relationship with a drug deafer?
MS, KOi KIK: ( <ht£hi. Correct.
(R. 175: Trial Trans,. EagciD 1114-15)

Sumlin Exhibit A7

“>-----------------------

Page 8 of 11
056 F,3d 879, ‘880: 2020 U.S. App. LEXIS 12744, "20; 2020 FED App, 0120P (6th Clr,), ”*12

2. ’'Intrinsic" versus ’’Extrinsic" Evidence
In light of our above assessment, we disagree with
Sumlin’s characterization of Kelly's testimony as
barred by Rule 404(b). Rule 404(b) "docs not apply
to evidence- that itself is probative of the crime
Charged!.]" United States v. Price, 329 F.3d 903.
906 (6th Cir. 2003). Such probative proof includes
"intrinsic acts" evidence that relates to those acts
that "were necessary preliminaries to the crime
charged.” United States v. Daultan, 266 F. App’x
381, 384 (6th Cir. 2008) (citation omitted).
Furthermore, even if the evidence at issue relates to
a defendant’s uncharged criminal conduct, the
evidence still is admissible if the conduct "arises
from the same events as" and "is directly probative
-of [defendant's] charged offense). 1" United States v.
Clay. 667 F.3d 689.698 (6th Cir. 2012).

the charged offense., arises from the same
events as the charged offense, forms an integral
pari of a witness's testimony, or completes the
story o f the charged offense.
United States v. Hardy (Martondo), 228 F.3d 745,
748 (6th Cir, 2000).

!***I3| In light of this authority, we find that
Amanda Kelly’s testimony, in which she reveals her
previous drug use and past drag purchase history'
from Sunil in, constituted both proper res gestae
evidence, as well as evidence that is "inextricably
intertwined" with evidence of Sumlin’s conviction
under 21 U.S.C. jt§ 841(a)(1) and (bKD(C). At a
foundational level, Kelly’s historic drug dealings
with Sumlin help contextualize (1) how she knew
Sum (in was TJ ," (2) how she recognized Sumlin’s
Car in her mother's driveway on the morning of her
To demarcate the scope of admissible "intrinsic sister's death, and (3) how she 1**22] identified
evidence” from proof that falls under the scope of Sumlin as the individual in the living room with her
Rule 404(b)’s exclusion, our circuit uses the sister at S;45 a.m. on the same rooming.
following framework:
Kelly’s previous interactions with Sumlin also help
Rule 404(h) does not apply where the de-code the text messages in which Carrie Dobbins
challenged
evidence
is
"inextricably appears to request drugs and Sumlin agrees to drop
intertwined" with evidence of the crime them off. Without any level of background
charged in the indictment. When the other knowledge of Sumlin’s past drug dealings with
crimes or wrongs occurred at different times Kelly and Carrie, the texts, in isolation, could
and under different circumstances from the appear cryptic. There were no explicit references to
offense charged, the deeds are termed drugs, or even popular drug code words in the
"extrinsic." j**21 J "Intrinsic" acts on the other conversation, which would have aided in
hand, are those that are part of a single criminal confirming that the text message exchange was
indeed, about a drug deal. Without any background
episode.
knowledge, the number ’’35” (Carrie’s response to
United States v, Barnes, 49 F.3d 1144, 1149 (6th Sumlin’s question of "how much") could have been
Cir. 1995) (citing United States v. Torres, 685 F.2d referring to "35" units of any type of commodity.
921, 924 (5th Cir. 1982)). Note as well, that (R. 177: Schmidt Trans,, PagelD 1404-14 &
evidence relating to the background of the charged Exhibit ,40> PageID 1655) However, as the
offense, |*890] known as "res gestae evidence," is government argues, and as we agree, Kelly's
also considered "intrinsic" and admissible, meaning testimony as to her past relationship and dealings
the court would not undertake a Rule 404(b) with Sumlin is "integral,” in that it completes the
analysis:
store of Sumiin’s charged offense under 21 U.S.C.
Proper background evidence has a causal, §§ g41(aXl> and (bH 1 MC>—namely, that those
temporal or spatial connection with the charged „3S» units dlscusscd jn the text exchange couid
offense. Typically, such evidence is a prelude reasonably havc bcen interpreted as ”35" units of
to the charged offense, is directly probative of

Sumlin Exhibit A8

Page 9 of 11
966 F.36 879, ‘890; 2020 U,S. App. LEXIS 12744, *'22; 2020 FS0 App. 0120P-(6th Cir.}, ‘**13

fentanyl or heroin, which was |®*23| Use quantity
of drugs that Sumlin, operating under the alias
"TJ,” distributed to Carrie and that ultimately led to
her death. Moreover, as Kelly explained, because
Sumlin had prior dealings with both her and her
sister, when he asked Carrie "how much" following
her request to "come over," he did not have to ask
where to deliver the drugs, (Id).
Significantly as well, we find the testimony to
represent both "intrinsic" and proper background
evidence In clarifying Kelly's motives for
testifying, as well as revealing any potential' bias
she harbored against Sumlin, which could have
prejudiced his case. The Supreme Court
characterizes bias as "the relationship between a
party and a witness which might lead the witness to
slant, unconsciously or otherwise, [her] testimony
in favor of or against a party.” j***f4J United
States v. Aha!, 469 U.S. 45, 52, 105 S. Ct 465, 83
L. Ed, 2d 450 (1984), "Bias is always relevant in
assessing a witness's credibility.'* Sehkdwitz v.
United'States, 169 F.3d 1003, 1015 (6th Cir. 1999).
Furthermore, Federal Rule of Evidence 607 permits
a party to proactively introduce potential
impeachment evidence during direct examination
prior to the defense having the opportunity to
present the same evidence during crossexamination. Kelly's testimony relating to her past
drug use and prior sexual relationship |*8911 with
Sumlin was directly relevant [**24] to her
credibility',7 The district court, therefore, did not
abuse its discretion when it allowed the government
to inform the jury of impeachment facts through
Kelly's direct testimony, rather than wait for them
to be introduced in her cross-examination.

Given this holding, we need not analyze Sumlin's
alternative argument regarding the testimony's
applicability under a Rule 404(b) analysis.

C. Sufficiency of the Evidence
Finally, Sumlin challenges the sufficiency of the
government's evidence supporting count three of
the indictment—that be distributed drugs to Carrie
Dobbins, and that those drugs caused her death,*1
Specifically, Sumlin argues that there was
insufficient evidence to show beyond a reasonable
doubt, that he was the one who distributed the
drugs that caused the death, because on the
morning of March 28, 2015, Carrie made attempts
10 contact several other drug dealers,
Reiaiedly, he contends that although Kelly saw him
in the living room with Carrie, Kelly never actually
saw him giving her drags.
"[A] defendant claiming insufficiency of the
evidence beats a heavy burdenUnited States v.
MaiiszewskL 161 F.3d 992, 1005 (6th Cir. 1998);
see United States v. Wright, 16 F.3d 1429, 1439
(6th Cir. 1994). In evaluating such claims, "we
examine the evidence in the light most favorable to
the government and draw all inferences in the
government's favor in order to determine whether
any rational trier of fact could have found the
dements of the offense beyond a reasonable
doubt." Maliszmvski, 161 F,3d at 1005 (citing
United States v. Riffe, 28 F.3d 565, 567 (6th
Cir. 1994)); see also Jackson v. Virginia, 443 U.S.
307, 319, 99 S. Ct 2781, 61 L. Ed. 2d 560 (1979).

^ Sumlin does not contest that he was a drag dealer, and

For she aforementioned reasons, we classify Kellys consequently. concedes his guilt under counts two and three. Indeed,
evidence as both "intrinsic’* and relevant, and during closing argument*. defense counsel gave "permission" to the
therefore, properly admitted by the district court jury convict on those counts:

* Namely. Kelly was an admitted recovering drug addict, who had
pftrvtmidy purvhnstfd drugs from Strrolift and had experienced great
diftlculry in her attempts to stop her heroin abuse. Importantly as
•well, Kelly had known Sumlin for years as a drug dealer, classmate,
and girlfriend. At the time of Carrie's death* Kelly mainfemed n
social relationship with some of Sumlin's family members.

f YfmTvc heard that Ryan sells illegal [**25! drugs, and that
probably doesn’t sit wei! with you right now. On April 28lh and
October 9th, both of tltot* times, he was caught with different
And hc‘s taken
quantities and different types of drugs,
responsibility for those actions. And you have permission to
hold him ncemromhle for those counts in Count 2 and 3,
(R, 1??; Sumlm Closing. I’agelO 157b)

Sumlin Exhibit A9

»1

Page I Oof H
0S6E.3d 879, *891; 2020 U.S. App. LEXIS 12744, **25; 2020 FED App. 0120P (61h Cir***15
"We draw all available inferences and resolve all notable external or internal injury documented on
issues of credibility in favor of the jury’s verdict, her body was a small puncture wound in her inner
and it is not necessary for ns to exclude every arm—a puncture that was consistent with recent
reasonable hypothesis but guilt." U.S- v. Avery* 128 drug use. Additionally, aside from showing that
Carrie had recently used heroin and fentanyl. the
F.3d 966, 971 (6th Cir. 1997).
forensic toxicology results revealed that she had a
The charge as to which Sumlin contends there was »,etha| |cvcr 0f fentanyl in her bloodstream at the
insufficient evidence—count three—indicted him time of death. Assessing these results. Dr. Sterbenz,
for possessing herein with the intent to distribute, jhe Chief Depu(y Medical Examiner with the
in violation of 21 U.S.C, § 841(a)(1), with the summit County Medical Examiner's Office who
enhanced sentencing penalty of 21 U.S.C. § pcrfonTlcd the'autopsy following Carrie's death.
841 (b)(1)(B). To establish illegal narcotics tcsti(k,d lhat »lo a reasonable degree of' medical
distribution in violation of 21 U.S.C. § 841(a), the certainty . . . Carrie died due to her active illicit
government had to prove that Sumlin P*26] (1) dn)g abuse>*' and Vcrv likely died on March 28,
knowingly or intentionally distributed fenianyl and 2Q15 bec,lUSe of ,he amount of fentanyl and heroin
heroin, and (2) at the time of such distribution, sb{, j)ad ingested. Adding external validity to these
Sumlin knew that the substances were fentanyl and claims, the Akron police officers who found
heroin. See United States v. Colon, 268 F,3d 367, Carrie's body in her bedroom on the morning of
376 (6th Cir. 2001). To sustain the March 28. 2015, reported that she died near a
enhanced 1*892] penalty of 21 U.S.C. § hypodermic needle, spoon, and a paper bindfe—all
841(b)(1)(B) related to this charge, the government paraphernalia used for the ingestion of drugs like
had so prove Sum 1 in's knowing or intentional fentanyl and heroin.
distribution of an illicit drug, and that another’s
death resulted from the use of that drug. Barrage v. The government also introduced substantial
United States571 U.S. 204. 210, 134 S. €t. 881. evidence to prove beyond a reasonable doubt that
Sumlin |**28| provided the drugs that caused
187 L. Ed. 2d 715 (2014).
Carrie’s fat*al overdose. Again, the text message
As noted, Sumlin does not contest that he was a evidence revealed the back-and-forth exchange
drug dealer. Therefore, the only question we are between Catrie and sumlin that led to the drug
faced with is whether there was sufficient evidence deal.
Despite
Sumlin’s
contentions, this
to support the jurys finding of count three--that conversation was neither cryptic nor vague.
Sumlin distributed the particular drugs that killed Dctcctivc Schmidt testified that based on his
Carrie Dobbins on March 28.2015.
extensive training and experience, he interpreted
Breaking down this inquiry into sub-elements, we the conversation as referring to a drug transaction.
Also, Kelly testified regarding Carrie's ongoing
conclude initially that the government introduced
drug addiction, Sumlin’s drug distribution activities,
substantial evidence supporting the fact beyond a
reasonable doubt that drogs killed the victim. First, and past incidents in which both sisters bought
the government’s presented proof from the autopsy drugs from Sumlin. Based on this evidence, it
and toxicology screening 1*** 16} performed on would have been reasonable lor the jury to
conclude that Carrie's text exchange with Sumlin
Carrie following her death, which demonstrated to
a medical certainty that a fentanyl overdose caused referred to a drug transaction. This conclusion is
her death. In this regard, not only did the autopsy also underscored by the fact that Carrie then
fail to show evidence of trauma, injury, stroke, requested that Sumlin wait to arrive until after her
heart attack, or any other cause as |**27| mother left for work, and to park his car on the side
responsible for Carrie’s death, but, in fact, the only of her house.

Sumlin Exhibit A10

p.-igf i i of i (

956 F.3U 879. *892; 2020 US. App. LEXIS 12744, **28; 2020 FED App, 0120P (6th Cif.). ***16

Also, as noted. Amanda Kelly and Julie Dobbins
identified a vehicle that matched Sumiin's Chrysler
300 at Julie's home on the morning her daughter
died there. Kelly saw him in the living room with
Carrie around 8:45 a.m„ and within three hours,
p**j7j
Dr. Sterhcnz
Carrie was dead,
testified J**29j that Dobbins died of a fentanvl
overdose at sometime between 9:00 a,m.—the time
when Kelly Jell her mother’s house—and noon, in
light of these temporal facts, a reasonable jury
could have concluded that |*893| Sumlin was the
last person to have seen the victim before she died
and that his delivery' of drugs to her caused her
death.
Finally, Sumiin's behavior following Carrie's death
could also reasonably be interpreted as suggesting
his involvement. According to the testimony of
Detective Schmidt, after searching online and
confirming Carrie’s death, Sumlin immediately
changed his telephone number and instructed his
contacts to ’’lose'' the old number. Additionally,
during his interview with officers, Sumlin made a
number of false statements, denying that he: (1)
knew' Carrie: (2) ever sold her drugs: (3) had ever
sold drugs at all; (4) lived at the residence on
Firestone Boulevard; and (5) drove a Chiyslcr 300.
Also, according to Detective Schmidt, during
recorded telephone calls between Sumlin and his
girlfriend and relatives, Sumlin indicated that his
life was "over" and slated that he should have run
from the police upon his apprehension.
Choosing not to respond to any of the government's
evidence, |**30| Sumlin instead references the fact
that Carrie made several attempts on the morning of
March 28, 2015 to contact other drug dealers in
likely pursuit of drugs. And indeed, there were text
messages from Carrie to several other drug dealers.
In addition to Sumlin, on that morning. However,
her contact with these other dealers was prior to her
texts with Sumlin, at the end of which Sumlin
appeared to agree to bring her drugs. Furthermore,
an analysis of Carrie's phone records from that
morning fails to reveal any indication that the other
suspected dealers whom she contacted, actually

agreed to deliver her drugs, liqualty. there is no
evidence that any drug dealer other than Sumlin
actually met with Dobbins on the morning of
March 28. 20!5. Nor is there evidence that another
drug dealer supplied Dobbins with fentanyl.
Consequently, based upon our review of this
collective evidence in the light most favorable to
the government, wc hold that the government
submitted sufficient proof for count three, and in
particular Sumiin’s enhanced sentencing penalty,
demonstrating that Carrie died from a fentany!
overdose and that Sumlin knowingly supplied her
with the drugs that produced her death.

P^ISJ [**311 111,
In light of the above, (1) wc AFFIRM the district
court’s finding of the search warrant's validity
because the government’s affidavit showed a
sufficient nexus between Sumiin's criminal activity
and the Firestone Boulevard residence: (2) we
AFFIRM the district court’s admission of Kelly’s
testimony regarding her past relationship with
Sumlin and his past drug transactions, given its
intrinsic nature and relevance to the government’s
ease; and (3) wc AFFIRM the jury's verdict that
Sumlin distributed the fentanyi that ultimately
caused the death of Carrie, as the government
submitted sufficient evidence in support of both
elements of the enhanced statutory1 penalty.
J'ttjf of Itaramci}!

Sumlin Exhibit A11

APPENDIX B
JUDGMENT OF THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF OHIO
ENTERED 8-31-18

».»■

Case: 5:15-cr-00319-DCN Doc ft: 154 Filed: 08/31/18 1 of 8. PagelD #: 835

United States District Court
NORTHERN DISTRICT OF OHIO
§

UNITED STATES OF AMERICA

JUDGMENT IN A CRIMINAL CASE

§
v.

RYAN K. SUMLIN

§
§
§

Case Number: 5:15-CR-0O319-DCN(3)
USM Number: 62250-060
Rhonda L. Kotnik

g

Dcfcndiml's Auorncs

THE DEFENDANT:

□
□
o
13

pleaded guilty to count! s)
pleaded guilty to counts) before a U.S. Magistrate
Fudge, which was accepted by the court.
______
pleaded nolo contendere to c«um(s) which was
accepted by the court
_______________ _
was found guilty on counts) after a plea of not guilty Coants One, Two and Three

The defendant is adjudicated guilty of these offenses:
Tide & Section / Nature of Offense
21:841 (a)( i) and (t>K 1 )f C) and! 8:2.21 ‘-85 i Distribute Fenbnvt/f leroin With Enhanced Penally
C-aasing Death Or Serious
Injury
21 :R-1 i(a)(i) and (bX I)(B>aid IK2.21:851 Possess With Intent To Distribute Femanyi
21:84ifis)< i) and fb){ 1 ){C) and 18:2.21:851 Possess Willi intent To Distribute t leroin

Offense Ended

in/oaTois

11!•092015
|fl.OW2H|5

Count
t
2
3

The defendant is sentenced as provided in pages 2 through 8 of this judgment. Hie sentence is imposed pursuant to the Sentencing
Reform Act of 1984.
□
D

The defendant has been found not guilty on couMfs)
Ceunt(s)
O is □ are dismissed on the motion of the United States

It is ordered that die defendant must notify the United States attorney for this district whhin 30 days of any change of name,
residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid, li
ordered to pay restitution, the defendant must notify the court and United States attorney of material changes in economic
circumstances.
Atii»itsi23,.2ftlJ-------DdK ofimpositiim of Judgment

of Jildfe

DONALD C NUGENT, United States District Judge
Ksrfti 3mi1 hfc ofyudec
,
tee

/iHfaJ

Sumlin Exhibit B1

)

2o]€

Case; 5:15-cr-0031§-DCN Doc#; 154 Filed: 08/31/18 2 of 8. PagelD a; 836
Judgment - Page 2 of 1

AO 243B (Rev. 2/18) Judgment in a Criminal Case
DEFENDANT:
CASE NUMBER:

RYAN K. SUMLIN
5:15-CR-00319-DCN(3)

IMPRISONMENT
The defendant is hereby committed to the custody of the United States Bureau of Prisons to be imprisoned for a total term of:
Life as to Countland Count 2 and 30 years as to Count 3 to run concurrent
S

The court makes the following recommendations to the Bureau of Prisons:
Credit for time served
A facility as near to Akron, OH

H
□

The defendant is remanded to the custody of the United States Marshal.
The defendant shall surrender to the United States Marshal for this district:

□

□

□

at

□

as notified by the United States Marshal.

a.m.

Q

p.m.

on

The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:
□
□
□

before 2 p.m. on
as notified by the United States Marshal.
as notified by the Probation or Pretrial Services Office.

RETURN
I have executed this judgment as follows:
Defendant delivered on

at

to

j with a certified copy of this judgment.

UNITED STATES MARSHAL

By

Sumlin Exhibit B2

DEPUTY UNITED STATES MARSHAL

.'

Case: 5:15~cr-00319*DCN Doc#: 154 Filed: 08/31/18 3 of 8. PagelD#:837
Judgment — Page 3 of 1

AO 245B (Rev. 2/18) Judgment in a Criminal Case
DEFENDANT:
CASE NUMBER:

RYAN K. SUMLIN
5:15-CR-00319-DCN(3)

SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be on supervised release for a term of: Six (6) years as to Count One and
Count Three and Eight (8) years as to Count Two terms to run concurrent.

MANDATORY CONDITIONS
1. You must not commit another federal, state or local crime.
2. You must not unlawfully possess a controlled substance.
3. You must refrain from any unlawful use of a controlled substance. You must submit to one drug test within 15 days of
release from imprisonment and at least two periodic drug tests thereafter, as determined by the court
Q The above drug testing condition is suspended, based on the court's determination that you
pose a low risk of future substance abuse, (check ifapplicable)
4. E9 You must make restitution in accordance with 18 U.S.C. §§ 3653 and 3663A or any other statute authorizing a sentence
of restitution (check ifapplicable)
5. B You must cooperate in the collection of DNA as directed by the probation officer, (check Ifapplicable)
<5, Q You must comply with the requirements ofthe Sex Offender Registration and Notification Act (34 U.S.C. § 20901, et
seq.)
as directed by die probation officer, the Bureau of Prisons, or any state sex offender registration agency in which you
reside, work, are a student, or were convicted of a qualifying offense, (check ffapplicable)
7. □ You must participate in an approved program for domestic violence. (check ifapplicable)
You must comply with the standard conditions that have been adopted by this court as well as with any other conditions on the
attached page.

Sumlin Exhibit B3

Case: 5:.t5-cr-00319-DCN Doc #: 154 Filed: 08/31/18 4 of 8. PagelD #: 838
Judgment - Page 4 of 8

AO 24SB (Rev. 2/18) Judgment In a Criminal Case
DEFENDANT:
CASE NUMBER:

RYAN K. SUMLIN
5:15-CR-00319-DCN(3)

STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must comply with the following standard conditions of supervision. These conditions are
imposed because they establish the basic expectations for your behavior while on supervision and identify the minimum tools needed
by probation officers to keep informed, report to the court about, and bring about improvements in your conduct and condition.
1. You must report to the probation office in the federal judicial district where you are authorized to reside within 72 hours of your
release from imprisonment, unless the probation officer instructs you to report to a different probation office or within a different time
2. After initially reporting to the probation office, you will receive instructions horn the court or the probation officer about how and

when you must report to die probation officer, and you must report to die probation officer as instructed.
3. You must not knowingly leave the federal judicial district where you are authorized to reside without first getting permission from
the court or the probation officer.
4. You must answer truthfully the questions asked by your probation officer.
5. You must live at a place approved by die probation officer. If you plan to change where you live or anything about your living
arrangements (such as the people you live with), you must notify the probation officer at least 10 days before die change. If notifying
the probation officer in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72
hours of becoming aware of a change or expected change.
6. You must allow die probation officer to visit you at any time at your home or elsewhere, and you must permit the probation officer
to take any items prohibited by the conditions of your supervision that he or she observes in plain view.
7. You must work frill time (at least 30 hours per week) at a lawful type of employment, unless the probation officer excuses you from
doing so. If you do not have full-time employment you must try to find full-time employment, unless the probation officer excuses
you from doing so. Ifyou plan to change where you work or anything about your work (such as your position or your job
responsibilities), you must notify die probation officer at least 10 days before the change. If notifying the probation officer at least 10
days in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72 hours of
becoming aware of a change or expected change. If not in compliance with the condition of supervision requiring full-time
occupation, you may be directed to perform up to 20 hours of community service per week until employed, as approved or directed by
the pretrial services and probation officer.
8. You must not communicate or interact with someone you know is engaged, in criminal activity. If you know someone has been
convicted of a felony, you must not knowingly communicate or interact with that person without first getting the permission of the
probation officer.
9. Ifyou are arrested or questioned by a law enforcement officer, you must notify the probation officer within 72 hours.
10. You must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.e., anything that
was designed, or was modified for, the specific purpose of causing bodily injury or death to another person such as nunchakus or
tasers).
11. You must not act or make any agreement with a law enforcement agency to act as a confidential human source or informant
without first getting the permission ofthe court.
12. As directed by the probation officer, you shall notify third parties who may be impacted by the nature of die conduct underlying
your current or prior offenses) of conviction and/or shall permit the probation officer to moke such notifications, and/or confirm your
compliance with this requirement.
13. You must follow the instructions of the probation officer related to the conditions of supervision.

U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the conditions specified by the court and has provided me with a
written copy of this judgment containing these conditions. I understand additional information regarding these
conditions is available at the www.uscourts.gov.
Date

Defendant’s Signature

Sumlin Exhibit B4

Case: 5:15-cr-00319-DCN Doc #: 154 Fifed: 08/31/18 5 of 8. PagelD #: 839
Judgment - Page S of 8

AO 245B (Rev. 2/18) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

RYAN K. SUMLIN
S:15-CR-00319-DCN(3) -

SPECIAL CONDITIONS OF SUPERVISION

Special Assessment - The defendant shall pay to the United States a special assessment of $300.00, which shall be due
immediately.
Mandatory/Standard Conditions - While on supervision, the defendant shall not commit another federal, state, or local crime,
shall not illegally possess a controlled substance, shall comply with the standard conditions that have been adopted by this
Court, and shall comply with any additional conditions.
Firearms and Dangerous Weapons - The defendant shall not posses a firearm, destructive device or any dangerous weapon.
DNA Collection - The defendant shall cooperate in the collection of DNA as directed by the U.S. Pretrial Services and
Probation Officer.
Restitution - The defendant must pay restitution in the amount of $4,639.85 through the Clerk of the U.S. District Court.
Restitution due and payable immediately. The defendant must pay at least 25% of gross monthly income, through the Federal
Bureau of Prisons Inmate Financial Responsibility Program. If a restitution balance remains upon release, payment is to
commence no later than 60 days following release from imprisonment during supervised release in monthly payments of at
least 10% of gross monthly income. Nothing shall prohibit the U.S. government from executing or levying upon property
discovered before or after the date of this judgment Interest is waived.

Sumlin Exhibit B5

i

Case: 5:15-cr-OG319-OCf4 Doe#: 154 Filed: 08/31/18 6of 8. PageiD #: 840
Judgment - Page 6 of 8

AO 245B (Rev. 2/18) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

RYAN K. SUMLIN
5:15-CR-00319-DCN(3)

CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule of payments on Sheet 6.
T
Assessment 1 JVTA Assessment* ______________ Fine______
$.00
$300.00
TOTALS

Restitution
$4,639.85

An Amended Judgment in a Criminal Case (A024SC) will be entered
The determination of restitution is deferred until
after such determination.
El The defendant must make restitution (including community restitution) to the following payees in the amount listed below.
□

$4,639.85 to J. D. Akron, Ohio through die Clerk of Court
Ifthe defendant makes a partial payment, each payee shall receive an approximately proportioned payment. However, pursuant to 18 U.S.C.
§ 3664(iX all nonfederal victims must be paid before the United States is paid.

\

Q
j ]
□

Restitution amount ordered pursuant to plea agreement $
Tiie defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in fiill before
the fifteenth day after die date ofthe judgment, pursuant to 18U.S.C. § 3612(f). All of the payment options on Sheet 6 may be
subject to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).
The court determined that the defendant does not have the ability to pay interest and it is ordered that:
□ restitution
□ the interest requirement is waived for die
p fine
p restitution is modified as follows:
□ the interest requirement for the
□ fine

* Jusdce for Victims of Trafficking Act of2015. Pub. L. No. 114-22
»* Findings for the total amount oflosses are required under Chapters I09A, 110,110A, and II3A of Title 18 for offenses committed on or after
September 13,1994, but before April 23,1996.

Sumlin Exhibit B6

t

Case: 5:15-cr-0031§-DCN Doc #: 154 Filed: 08/31/18 7 of 8. PagelD #: 841
Judgment -- Page 7 of 8

AO 245B (Rev. 2/18) Judgment in a Criminal Case
DEFENDANT:
CASE NUMBER:

RYAN K. SUMLIN
5:15-CR-00319-DCN(3)

SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties is due as follows:
A

due immediately, balance due

□ Lump sum payments of S
■ or

□ not later than
□ in accordance

□

C,

□

D,

□

E, or

□

F below; or

□

C,

□

D,or

□

F below); or

B

□ Payment to begin immediately (may be combined with

C

_ over a period of
□ Payment in equal ___ ;______ (e.g., weekly, monthly, quarterly) installments of $______
(e.g„ 30 or 60 days) after the date of this judgment;
(e.g., months or years), to commence
or

D

over a period of
Q Payment in equal 20 (e.g„ weekly, monthly, quarterly) installments of $
(e.g„
30
or
60
days)
after release from
____________(e.g., months or years), to commence
imprisonment to a term of supervision; or

E

□ Payment during the term of supervised release will commence within__________ (e.g„ 30 or 60 dqys) after release
from imprisonment. The court will set the payment plan based on an assessment of die defendant’s ability to pay at that
time; or

F

El Special instructions regarding the payment of criminal monetary penalties:
It is ordered that the Defendant shall pay to the United States a special assessment of $300.00 for Counts 1,2 and
3, which shall be due immediately. Said special assessment shall be paid to the Clerk, U.S. District Court

Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal monetary penalties is
due during imprisonment All criminal monetary penalties, except those payments made through the Federal Bureau of Prisons’
Inmate Financial Responsibility Program, are made to the clerk of the court
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.
□

Joint and Several
See above for Defendant and Co-Defendant Names and Case Numbers (including defendant number), Total Amount, Joint and
Several Amount, and corresponding payee, if appropriate.

□ Defendant shall receive credit on his restitution obligation for recovery from other defendants who contributed to the same
loss that gave rise to defendant's restitution obligation.
□ The defendant shall pay the cost oF prosecution.
□ The defendant shall pay the following court cost(s):
□ The defendant shall forfeit the defendant’s interest in the following property to the United States:

Payments shall be applied in the following order: (I) assessment, (2) restitution principal, (3) restitution interest, (4) fine principal,
(5) fine interest, (6) community restitution, (7) JVTA Assessment, (8) penalties, and (9) costs, including cost of prosecution and court costs.

Sumlin Exhibit B7

Case:5:15-cf-00319-DCN Doc#: 154 Filed: 08/31/18 8of8. PagelD#:842
Judgment - Page 8 of 8

AO 245B (Rev. 2/18) Judgment in a Criminal Case
DEFENDANT:
CASE NUMBER:

RYANK. SUMLIN
S: 15-CR-00319-DCN(3)

DENIAL OF FEDERAL BENEFITS
(For Offenses Committed On or After November 18,1988)
FOR DRUG TRAFFICKERS PURSUANT TO 21 U.S.C. § 862
IT IS ORDERED that the defendant shall be:
□
□

ineligible for all federal benefits for a period of
Ineligible for the following federal benefits for a period of
(specify benefit(s))
OR

Q

Having determined that this is the defendant’s third or subsequent conviction for distribution of controlled substances, IT IS
ORDERED that the defendant shall be pemtanently ineligible for all federal benefits.

FOR DRUG POSSESSORS PURSUANT TO 21 U.S.C. § 862(b)
□
Q

□
□

IT IS ORDERED that the defendant shall:
be ineligible for all federal benefits for a period of
be ineligible for the following federal benefits for a period of
(specify benefits))
successfully complete a drug testing and treatment program.
perform community service, as specified in the probation and supervised release portion of this judgment
IS FURTHER ORDERED that the defendant shall complete any drug treatment program and community service specified in
this judgment as a requirement for the reinstatement of eligibility for federal benefits.

Pursuant to 21 U.S.C. § 862(d), this denial of federal benefits does not include any retirement, welfare, Social Security,
health, disability, veterans benefit, public housing, or other similar benefit, or any other benefit for which payments or services
are required for eligibility. The clerk Is responsible for sending a copy of this page and the first page of this judgment to:
U.S. Department of Justice, Office of Justice Programs, Washington, DC 20S31

Sumlin Exhibit B8

1

V

*'

APPENDIX C
JUDGMENT OF THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF OHIO
ENTERED 9-11-18

Case: 5:15-cr-00313-DeN Doc#: 156 Filed: 09/11/18 l ots. PagelD#: 84?

United States District Court
■NORTHERN DISTRICT OF OHIO
UNITED STATES OF AMERICA

§ AMENDED JUDGMENT IN A CRIMINAL CASE

v.

§

RYAN K. SUM UN
Dntc of Original Judgment: 800/2018
Reason for Amendment:

§

Case Number: 5:15-CR-00319-DCN{3)

§
§
g

USM Number: 62250-060
Rhonda L. Kofwik
Dcfimcirsn:'s Aiionxy

D

Correction of sentence on reuuunl (18 U.S.C. 3742(i)< S > and (2))

O

□

O

D

Reduction of Sentence for Changed Circumstances
(Fed. R .Crim.P-35 (b) t
Correction of Sentence by Sentencing Court (Fed.R.Crim.P.36)

Si

Correction of Sentence for Clerical Mistake |Fed.R.CrirsU’.3&3

□

□

□

Modificfilton oi'Supcr\’isior4{.T'UuiUon? (IS U.S.C. 3563(c)or
3583(c))
Modification of imposed Term of Imprisonment for Extraordinary and
Convening Reasons (18 U.S.C. § 3582(e)(0)
Modification of Imposed Term of imprisonment for Retroactive
Amcttdm«u(s) top the Sentencing Guidelines (IS U.S.C § 35S2(cX2})
Direct Motion to District Court Pursuant O 28 U.S.C. § 2255 or
□ 18 U.S.C. §3339(0(7)
Modification of Restitution Order (IS U.S.C. § 3664)

THE DEFENDANT:

□
□

□
B

pleaded guilty to coimt(s)
pleaded guilty to cotmKs) before a U.S.
Magistrate Judge, which was accepted by the
court.
pleaded nolo contendere to eauni(s) which was
accepted by the court
was found guilty on counts) after a plea of twt
guilty

Counts One, Two and Three

The defendant is adjudicated guilty ofthese offenses:
Title £ Section / Nature of Offense
21 :S41 (:t)( t) ond (b)( t)(Ci trnd 18:2, 21:851 Disrtibutc pcntunyM ieroin With Enhanced Penalty
Causing Death Or Serious Ihxlily Injury
2t;84!(,».)(Ijand (bid )(B)nnd 18:2,21:851 Possess With. Intent To Distribute Frahmyl
21:841(a)(1) and (MOMO and 18:2.21:851 Possess With intent To Distribute Heroin

Offense Ended
UWW/20IS

Count
I

HM)9/2ms

2
3

hmmqois

The defendant is sentenced as provided in pages 2 tl trough S of this judgment. The sentence is imposed pursuant to the Sentencing
Reform Act of 1984,
Q

The defendant has been found not guilty on countfs)

D

Count/s)

D is

□ are dismissed on the motion of the United States

It is ordered that the defendant must notify the United States attorney for this district within 30 days of any change of name,
residence, or mailing address until ail fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If
ordered to pay restitution, the defendant must notify the court and United States attorney of materia! changes in economic
cireiinistanccsAnatist 23,20.18
Date cifttwifitMe of Jndsmem

SigDatiiffe* of J«d$e

j

fj

DONALD C NUGENT, United Statc*jDte(rict Judge
N*rnc Jttd *1 life qt Judge
Owe

Sumlin Exhibit C1

(/, 20<i

Case: 5:15-cr-00319-DCN Doc#: 156 pled: 09/11/18 2of8. PagelD #: 848
Judgment ~ Page 2 of 3

AO 24SC (Rev. 2/18) Amended Judgment in a Criminal Case
DEFENDANT:
CASE NUMBER:

RYAN K. SUMLIN
5:15-CR-00319-DCN(3)

IMPRISONMENT
The defendant is hereby committed to the custody of the United States Bureau of Prisons to be imprisoned for a total term of:
Life as to Count land Count 2 and 30 years as to Count 3 to run concurrent

,

13 The court makes the following recommendations to fee Bureau of Prisons:
Credit for time served
A facility near Akron, Ohio
13 The defendant is remanded to the custody of fee United States Marshal.
□ The defendant shall surrender to the United States Marshal for this district:

□ a.m.

□ at

□ p.m.

on

n as notified by the United States Marshal.
□ The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:
□ before 2 pun. on
□ as notified by the United States Marshal
□ as notified by fee Probation or Pretrial Services Office.

RETURN
I have executed this judgment as follows:
Defendant delivered on
at

to

j with a certified copy of this judgment.

UNITED STATES MARSHAL

By

DEPUTY UNITED STATES MARSHAL

Sumlin Exhibit C2

Case: 5:15-er-00319-DCN Doc#: 156 Filed: 09/11/18 3 of 8. PagelD #: 849
AO Z45C (Rev. 2/18) Amended Judgment in a Criminal Case
DEFENDANTCASE NUMBER:

Judgment - Page 3 of 8

RYAN K. SUMI.1N
5:15-CR-00319-DCN(3)

SUPERVISED RELEASE
Upon release ftom imprisonment, the defendant shall be on supervised release for a termof: Six (6) years as to Count One and Count
Three and Eight (8) years as to Count Two terms to run concurrent.
The defendant must report to fee probation office in the district to which the defendant is released within 72 hours of release
from the custody of the Bureau of Prisons.

MANDATORY CONDITIONS
1. You must not commit another federal, state or local crime.
2. You must not unlawfully possess a controlled substance.
3. You must refrain from any unlawful use of a controlled substance. You must submit to one drug test within 15 days of
release from imprisonment and at least two periodic drug tests thereafter, as determined by fee court
□ The above drug testing condition is suspended, based on the court's determination that you
pose a low risk of future substance abuse. (check ifapplicable)
4. |g| You must make restitution in accordance with i 8 U.S.C. §§ 3663 and 3663A or any other statute authorizing a sentence
of restitution (check Ifexplicable)
5. |3 You must cooperate in fee collection of DNA as directed by the probation officer, (check ifapplicable)
6. Q You must comply with the requirements of the Sex Offender Registration and Notification Act (34 U.S.C. § 20901, et
seq.)

as directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in which you
reside, work, are a student, or were convicted of a qualifying offense. (check ifapplicable)
7. □ You must participate in an approved program for domestic violence. (check ifapplicable)
The defendant must comply wife the standard conditions that have been adopted by this court as well as with any
additional conditions on the attached page.
Ifthis judgment imposes a fine or restitution, it is a condition of supervised release feat the defendant pay in accordance with
fee Schedule of Payments sheet of this judgment.

Sumlin Exhibit C3

,1

Case: 5:15-cr-00319-DCN Doc #: 156 Filed: 09/11/18 4 of 8. PagelD #: 850
Judgment - Page 4 of 8

AO 24SC (Rev. 2/18) Amended Judgment in a Criminal Case
DEFENDANT:
CASE NUMBER:

RYAN K. SUMLIN
5:15-CR-00319-DCN(3)

STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must comply with the following standard conditions of supervision. These conditions are
imposed because they establish die basic expectations for your behavior while on supervision and identify the minimum tools needed
by probation officers to keep informed, report to the court about, and bring about improvements in your conduct and condition.
1. You must report to the probation office in the federal judicial district where you are authorized to reside within 72 hours ofyour
release from imprisonment, unless the probation officer instructs you to report to a different probation office or within a different time
frame.
2. After initially reporting to the probation office, you will receive instructions from the court or the probation officer about how and
when you must report to the probation officer, and you must report to the probation officer as instructed.
3. You must not knowingly leave the federal judicial district where you are authorized to reside without first getting permission from
the court or the probation officer.
4. You must answer truthfully the questions asked by your probation officer.
5. You must live at a place approved by the probation officer. Ifyou plan to change where you live or anything about your living
arrangements (such as die people you live with), you must notify the probation officer at least 10 days before die change. If notifying
the probation officer in advance Is not possible due to unanticipated circumstances, you must notify the probation officer within 72
hours of becoming aware of a change or expected change.
6. You must allow the probation officer to visit you at any time at your home or elsewhere, and you must permit the probation officer
to take any items prohibited by the conditions of your supervision that he or she observes in plain view.
7. You must work foil time (at least 30 hours per week) at a lawful type of employment, unless the probation officer excuses you from
doing so. Ifyou do not have foil-time employment you must try to find full-time employment, unless the probation officer excuses
you from doing so. If you plan to change where you work or anything about your work (such as your position or your job
responsibilities), you must notify the probation officer at least 10 days before the change. If notifying the probation officer at least 10
days in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72 hours of
becoming aware of a change or expected change. If not in compliance with the condition of supervision requiring foil-time
occupation, you may be directed to perform up to 20 hours of community service per week vmtil employed, as approved or directed by
the pretrial services and probation officer.
8. You must not communicate or interact with someone you know is engaged in criminal activity. If you know someone has been
convicted of a felony, you must not knowingly communicate or interact with that person without first getting the permission of the
probation officer.
9. Ifyou are arrested or questioned by a law enforcement officer, you must notify the probation officer within 72 hours.
10. You must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.c-, anything that
was designed, or was modified for, die specific purpose of causing bodily injury or death to another person such as nunchakus or
lasers).
11. You must not act or make any agreement with a law enforcement agency to act as a confidential human source or informant
without first getting the permission of the court
12. As directed by the probation officer, you shall notify third parties who may be impacted by the nature of die conduct underlying
your current or prior offense(s) of conviction and/or shall permit the probation officer to make such notifications, and/or confirm your
compliance with this requirement.
13. You must follow the instructions of the probation officer related to the conditions of supervision.

U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the conditions specified by the court and has provided me with a
written copy of this judgment containing these conditions. I understand additional information regarding these
conditions is available at the www.uscourts.gov.
Date

Defendant’s Signature

Sumlin Exhibit C4

s'

Case: 5:15-cr-00319-DCN Doc #: 156 Filed: 09/11/13 5 of 8. Page!D#:851
AO 243C (Rev. 2/18) Amended Judgment in a Criminal Case
DEFENDANT:
CASE NUMBER:

Judgment — Page 5 of 8

RYAN K. SUMLIN
5:15-CR-00319-DCN(3)

SPECIAL CONDITIONS OF SUPERVISION

Special Assessment - The defendant shall pay to the United States a special assessment of $300.00, which shall be due
immediately.
Mandatory/Standard Conditions - While on supervision, the defendant shall not commit another federal, state, or local crime,
shall not illegally possess a controlled substance, shall comply with the standard conditions that have been adopted by this
Court, and shall comply with any additional conditions.
Firearms and Dangerous Weapons - The defendant shall not possess a firearm, destructive device or any dangerous weapon.
DNA Collection - The defendant shall cooperate in the collection of DNA as directed by the U.S. Pretrial Services and
Probation Officer.
Restitution - The defendant must pay restitution in the amount of $4,639.85 through the Clerk of the U.S. District Court.
Restitution due and payable immediately. The defendant must pay at least 25% of gross monthly Income, through the Federal
Bureau of Prisons Inmate Financial Responsibility Program. If a restitution balance remains upon release, payment is to
commence no later than 60 days following release from imprisonment during supervised release in monthly payments of at
least 10% of gross monthly income. Nothing shall prohibit the U.S. government from executing or levying upon property
discovered before or after the date of this judgment. Interest is waived.

Sumlin Exhibit C5

Case: 5:15-cr-G0319-DCN Doc #; 156 Filed: 09/11/18 6 of 8. PagelD #: 852
Judgment — Page 6 of 8

AO 245C (Rev. 2/18) Amended Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

RYAN K. SUMLIN
5:15-CR-00319-DCN(3)

CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule of payments on Sheet 6.
Fine
JVTA Assessment*
Assessment

TOTALS

□
m

$300.00

$.00

Restitution
$4.639.85

An Amended Judgment in a Criminal Case
The determination of restitution is deferred until
(A024SC) will be entered after such determination.
The defendant must make restitution (including community restitution) to the following payees in die
amount listed below.

$4,639.85 to J.D. Akron, Ohio through the Clerk of Court.
Ifthe defendant makes apartial payment, each payee shall receive an approximately proportioned payment. However, pursuant to 18 U.S.C.
§ 3664(0, all nonfederal victims must be paid before the United States is paid.

□
□
□

Restitution amount ordered pursuant to plea agreement $
The defendant must pay interest on restitution and a fine ofmore than $2,500, unless the restitution or fine is paid in full before
die fifteenth day after fee date of fee judgment, pursuant to i 8 U.S.C. § 3612(f). All of the payment options on Sheet 6 may be
subject to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).
The court determined that the defendant does not have the ability to pay interest and it is ordered feat:
□ restitution
□ fee interest requirement is waived for the
□ fine
□ restitution is modified as follows:
□ fee interest requirement for the
□ fine

* Justice fcr Victims of Trafficking Act of 2015, Pub. L. No. 114-22
** Findings for the total amount of losses are required under Chapters 109A, 110,110A, and 113A of Title 18 for offenses committed on or after
September 13,1994, but before April 23,1996.

Sumlin Exhibit C6

Case: 5:15-cr-00319-DCN Doc #: 156 Filed: 09/11/18 7 of 8- PagelD #: 853
Judgment -- Page 7 of 8

AO 245C (Rev. 2/18) Amended Judgment In a Criminal Case
DEFENDANT:
CASE NUMBER:

RYAN K. SUMLIN
5:15-CR-00319-DCN(3)

SCHEDULE OF PAYMENTS
Having assessed the defendant's ability to pay, payment of the total criminal monetary penalties is due as follows:
A

due immediately, balance due

□ Lump sum payments of $
.or

□ not later than
□ in accordance

□

C,

□

D,

□

E,or

□

F below; or

□

C,

□

D, or

□

F below); or

B

□ Payment to begin immediately (may be combined with

C

_ over a period of
□ Payment in equal __________ (e.g., weekly, monthly, quarterly) Installments of $
(e.g., 30 or 60 days) after the date of this judgment;
(e.g„ months or years), to commence
or

D

over a period of
□ Payment in equal 20 (e.g.. weekly, monthly, quarterly) installments of $
(e.g., 30 or 60 days) after release from
____________(e.g., months or years), to commence
Imprisonment to a term of supervision; or

E

Q Payment during the term of supervised release will commence within______ _
(e &> 30 w 60 dqys) after release
from imprisonment The court will set the payment plan based on an assessment of the defendant's ability to pay at that
time; or

F

El Special instructions regarding the payment of criminal monetary penalties:
It is ordered that the Defendant shall pay to the United States a special assessment of $300.00 for Counts 1,2 and
3, which shall be due immediately. Said special assessment shall be paid to the Clerk, U.S. District Court.

Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal monetary penalties is
due during imprisonment. All criminal monetary penalties, except those payments made through the Federal Bureau of Prisons’
Inmate Financial Responsibility Program, are made to the clerk of the court
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.
□

Joint and Several
See above for Defendant and Co-Defendant Names and Case Numbers (Including defendant number), Total Amount, Joint and
Several Amount, and corresponding payee, if appropriate.

□ Defendant shall receive credit on his restitution obligation for recovery from other defendants who contributed to the same
loss that gave rise to defendant's restitution obligation.
□ The defendant shall pay the cost of prosecution.
□ The defendant shall pay the following court cost(s):
El The defendant shall forfeit the defendant’s interest in the following property to the United States:
$16,599.00 In U.S. Currency
Payments shall be applied in the following order (1) assessment, (2) restitution principal, (3) restitution interest. (4) fine principal,
(S) fine interest, (6) community restitution. (7) JVTA Assessment, (8) penalties, and (9) costs, including cost of prosecution and court costs.

Sumlin Exhibit C7

Case: 5:15-cr-0O319~DCN Doc #: 156 Filed; 09/11/18 8 of 8. Page© #: 854
Judgment -- Page 8 of 8

AO 24SC (Rev. 2/18) Amended Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

RYAN K. SUMLIN
5:15-CR-00319-DCN(3)

DENIAL OF FEDERAL BENEFITS
(For Offenses Committed On or After November 18,1988)
FOR DRUG TRAFFICKERS PURSUANT TO 21 U.S.C. § 862
IT IS ORDERED that the defendant shall be:
□
□

ineligible for all federal benefits for a period of
ineligible for the following federal benefits for a period of
(specify benefits))
OR

□

Having determined feat this is fee defendant’s third or subsequent conviction for distribution of controlled substances, IT IS
ORDERED that fee defendant shall be permanently ineligible for all federal benefits.

FOR DRUG POSSESSORS PURSUANT TO 21 U.S.C. § 862(b)
□
□

□
□

IT IS ORDERED feat the defendant shall:
be ineligible for all federal benefits for a period of
be ineligible for fee following federal benefits for a period of
(specify benefits))
successfully complete a drug testing and treatment program.
perform community service, as specified in the probation and supervised release portion of this judgment
IS FURTHER ORDERED that fee defendant shall complete any drug treatment program and community service specified in
this judgment as a requirement for the reinstatement of eligibility for federal benefits.

Pursuant to 21 U.S.C § 862(d), this denial of federal benefits does not include any retirement, welfare, Social Security,
health, disability, veterans benefit, public housing, or other similar benefit, or any other benefit for which payments or services
are required for eligibility. The clerk is responsible for sending a copy of this page and the first page of this judgment to:
U.S. Department of Justice, Office of Justice Programs, Washington, DC 20331

Sumlin Exhibit C8

*

1

c

t

APPENDIX D
USDC ORDER DENYING MOTION TO SUPPRESS
ENTERED 8-30-17

United States v. Surnlin
United States District Court for the Northern District of Oh io, Eastern Di vision
August 29, 2017, Decided; August 30, 2017, Filed
CASE NO. 5:1 SCR 319
Reporter
2017 U.S, Dist, LEXIS 139906 *; 2017 WL 3732002
UNITED STATES OF AMERICA, Plaintiff, v.
RYAN K. SUMUN, Defendants.

MEMORANDUM OPINION AND ORDER

Subsequent History: Affirmed by United States v,
Surnlin, 2020 U.S, App. LEXIS 12744 (6th Cir.
Ohio, Apr. 21,2020)

This matter is before the Court on Defendant, Ryan
K, Sumlin’s Motion to Suppress Evidence. (ECF
#84), The Government filed an Opposition to
Defendant's Motion, (ECF #85), No Reply was
filed. Defendant waived a formal hearing on his
Motion, with both parties agreeing that the Court
should rule based solely upon the written briefing.
(ECF #86).

Counsel: |*1) For Ryan K. Surnlin, also known as
T.J., Defendant: Rhonda L. Kotnik, Akron, OH.
For United States of America, Plaintiff: Linda H.
Barr, LEAD ATTORNEY, Office of the U.S.
Attorney - Akron. Northern District of Ohio,
Akron, OH; Elliot D. Morrison, Office of the U.S.
Attorney - Cleveland, Cleveland, OH; Phillip J.
Tripi, Office of the U.S. Attorney * Cleveland.
Northern District of Ohio, Cleveland. OH.

Judges; DONALD C. NUGENT. United States
District Judge.

Opinion by: DONALD C. NUGENT

Opinion

LEGAL STANDARD
The Fourth Amendment to the United States
Constitution provides that "the right of the people
to be secure in their persons, houses, papers, and
effects against unreasonable searches and seizures,
shall not be violated and no warrants shall issue,
but upon probable cause, supported by oath or
affirmation, and particularly describing, the place to
be searched, and the persons or things to be
seized. |*2| U.S. Const. Amend IV. There is no
Fourth Amendment violation when a search is
conducted pursuant to a search warrant, issued
upon a finding of probable cause which is
supported hy an affidavit.
A supporting affidavit must show a fair probability,
or likelihood that contraband or evidence of a crime
will be located on the premises of the proposed
search. /({tools v. Gates, 462 U.S. 213, 103 S. Ct.
2317. 76 L Ed. 2d 327 (1983): Untied States v.
Jenkins. 396 FJd 751, 760 (6th Cir. 2005): United
States r. Church. 823 FJd 351, 355 (6th Cir.
2016), The affidavit must point to some "nexus

Surnlin Exhibit D1

Page 2 of 5
201? U.S. Dist. LEXIS 139906, *2

between the place to be searched and the evidence good faith in conducting the search. United States
sought.” United Suites v. Carpenter, 360 F.3d 591, v. Moss, 456 U.S. 798, 823, n, 32, 102 S. Ct. 2157,
594 (6th Cir. 2004)(cn banc). Reliance on hearsay 72 L. Ed. 2d 572 (1982); lean, 468 U.S. at 922.
is entirely proper. United States v. Gunter. 551 F.3d "(Wjhere officers rely in an objectively reasonable
fashion on a search warrant issued by a neutral
472,479 (6th Cir. 2009).
magistrate that is subsequently found to be invalid,
A review of the sufficiency of the evidence the Fourth Amendment exclusionary rale does not
presented in support of a search warrant is limited require suppression of the fruits of the search,"
to the information contained in the four comers of United States v. Bowling, 900 F.2d 926, 931 (6th
the supporting affidavit. United Slates v. Berry, 565 Cir. 1990). The United States Supreme Court has
F.3d 332, 338 (6th Cir. 2009). The affidavit must recognized four grounds for Finding extraordinary
be judged based on a totality of the circumstances, circumstances that could override the good faith
using eommonsense, and taking into consideration presumption. In this case, Mr. Sumtin claims that
that the they are "normally drafted by stonlawyers one of these grounds applies, that being that the
in the midst and haste of an on-going criminal affidavit is "so lacking in indicia of probable cause
investigation. United States v. Waosley, 361 F,3d as to render official belief in its existence entirely
924, 926 (6th Cir. 2004); United States v. Pelham, unreasonable.” Lean, 468 U.S. at 922-923.
801 F,2d 875, 877 (6th Cir. 1986): United States v.
Brooks, 594 F.3d488, 490 (6th Cir. 2610).
ANALYSIS
A judicial determination of probable cause, once
made, "is entitled to ‘great deference’ and must not Defendant contends that the 1*4] search warrant
reversed in the absence of clear error." United permitting the search of 926 Firestone Boulevard
States v. Calloway, 116 F.3d 1129, 1132 (6th Cir. was not supported by probable cause because the
1997)(citation omitted): see also, e.g, United States affidavit submitted in support of the warrant did not
v. Mclevain, 310 F.3d 434, 439 (6th Cir. 2002). demonstrate a fair probability that evidence of a
"(T]he task of the reviewing court is not to conduct crime would be located there. (ECF #84). He
a de novo determination of probable cause, but only claims that because the affidavit contained no
to determine whether there is substantial j*3| allegation of illicit activity occurring at the
evidence in the record supporting the [judicial searched residence, there was no nexus between the
officer’s] decision to issue the warrant." property' and the sought after evidence. Defendant
Massachusetts v. Upton, 466 U.S. 727, 728. 104 S. cites United States v. Pinson, 321 F.3d 558 (6th
Ct. 2085, 80 1,. fid. 2d 721 (1984); see also, e.g.. Cir. 2003), and United States v. Brown. 828 F.3d
United States v. Rodriguez-Suaza, 346 F.3d 637, 375 (6th Cir. 2014), for the proposition that without
643 (6th Cir. 2003).
more, a drug dealers place of residence is not
searchable based solely on a general expectation
Further, even if a search warrant is not supported
that drug dealers tend- to keep drugs, money, guns
by probable cause, a reviewing court cannot
and'or records of transactions at their homes. In
suppress the evidence uncovered during the search
those cases, the court found no nexus between the
unless it finds that the affidavit was so deficient
suspect’s residence and the alleged criminal
that the officers executing the warrant were not
activity, hi Even under the good faith standard for
acting in good faith. See. United States v. Leon, 468
an officer’s execution of a search warrant, which is
U.S. 897, 104 S. Ct. 3405,82 L. Ed. 2d 677 (1984).
significantly less demanding that the standard for
Except in extraordinary circumstances, the
finding probable cause, the Brown court found that
existence of a search warrant issued by a magistrate
the affidavit must still draw on some "plausible
suffices to show that the executing officer acted in
connection” between the criminal activity and the

Sumlin Exhibit D2

Page 3 of 5
2017 U.S. D!st. LEXIS 130908, *4

residence 10 be searched. A connection between the receiving Ms. Dobbins' early morning test, and the
alleged criminal and the residence is not. in Chrysler was seen parked near her home some time
and | *5} of itself, sufficient to support either before 7:00 a.m.
standard. See, Brown, 828 F.3d at 385*86.
(8) The officer's personal experience shows that
In this ease the affidavit attests to the following individuals involved in drug trafficking use
firearms and weapons, keep large quantities of
facts;
cash, maintain records and documents, and use
(1) A 200? Chrysler 300, registered to the equipment for the processing and packaging of
Defendant’s mother was parked in the driveway of drugs for sale.
920 Firestone Boulevard ("the subject property) on
The government agrees that the search warrant
multiple days.
affidavit does not mention any evidence of illicit
(2) The utilities for the subject property are in the activity related to the current charges, occurring at
name of the Defendant's girlfriend.
the searched residence. However, they contend that
(3) There are notes from prior recent police reports, there was evidence that Mr. Sumlin resided in the
indicating that the Defendant resides at the subject property that was searched. This fact alone
distinguishes the instant case from the facts in
property.
United States v. Pinson. 32i F.3d 558 (6th Cir.
(4) A month prior to the warrant request, the 2007 2003). and undercuts the application of its
Chrysler 300, which had been parked at the subject rationale. In Pinson, the court held that in the
property, was seen, in the morning, at a residence absence of any other |*?| indicia of criminal
where Carrie Dobbins died of a heroin overdose activity at the location of the search, "there should
later that day.
be evidence that the trafficker actually owns or
resides at Lite property to be searched." This criteria
(5) There is evidence indicating that this car was is satisfied in Mr. Stun tin's case. There is, indeed,
known to be used by the Defendant, that he had evidence contained in the affidavit that would tend
previously been arrested while driving that car. and to show that be resides at the subject property.
that he was known to be Ms, Dobbins' heroin Therefore, Pinson, one of the two eases relied on
denier.
by the Defendant, does not apply under the
(6) There were cell phone test communications circumstances of this case.
between the Defendant and Ms. Dobbins' beginning
at 6:09 a.m. on the day she died wherein she asked
hint to come and see her, to bring “35," and to
arrive at her house after her mother left in the
morning. There was also a text message sent from
Ms. Dobbins to the f*6| Defendant telling hint to
arrive at 6:45 a.m., and "park on the side of the
street with the lights off because "her mother's
friend is on the way to the house to pick her mother
up.” Ms. Dobbins' mother sow a Chrysler parked on
the side street near her home when she was picked
up that morning.

As Pinson does not support the Defendant's
position in this case, the Defendant's entire
argument rests on the holding of United States v,
Brnwn, The Defendant’s interpretation of Brown
would require this Court to ignore the Sixth
Circuit's long-standing position that "an issuing
judge may infer that drug traffickers use their
homes to store drugs and otherwise further their
drug trafficking.’’ United States v. Williams, 544
F.3d 683, 687-88 (6th Cir. 2008)(collecting cases).
Brown did not, however, overrule Williams, Rather,
Brown recognized that this inference has been the
(7) The Defendant communicated that he was on type of evidence that established the required nexus
his way at 6:14 a.m.. within six minutes of with an alleged dealer’s residence. Brown, at 383.

Sumlin Exhibit D3

t

Page 4 of 5
2017 U,S. DiS!. LEXIS 138908, “7

in its own analysis. Brown emphasD-Jed] the fact­ activity and the subject property. The affidavit sets
intensive nature of the probable cause inquiry'" and forth facts that would show not only that Mr.
rejected "rigid rules, bright-line tests, and Sumiin lived at the subject property, but that the car
mechanistic |*8| inquiries in favor of a more he used to conduct drug transactions had been seen
flexible, ali-ibings-conxkiered approach." Id. at 384 parked at the subject property. Further, when Ms.
(quoting Florida v. Harris, 568 U.S. 237, 244. 133 Dobbins contacted him at 6:09 a.m. seeking drugs,
S. Ct, 1050, 185 L, Ed. 2d 61 (2053)), Although he responded that he was on his way within six
Bmwn found that "as a general matter" the affidavit minutes, and arrived at her property in
should "include facts that directly connect the approximately one half hour to forty-five.minutes.
residence with the suspected drug activity'," it did It is likely, or fairly probable, that at 6:09 a.m. he
not claim that this was a hard and fast rule, or that a would have been at his residence, |*I0J and that he
''connection" to the residence meant that there must would not have had time to leave home, travel to a
he evidence of illegally drug activity actually different location to retrieve drugs, and make it to
Ms. Dobbins* home within that time frame. Under
taking place at the residence.
the totality of the circumstances, including the fact
in making its own factual determination, based on a that he was Ms. Dobbin's drug dealer, he drove the
totality' of the circumstances, the Brown court found Chrysler to visit her after she requested drugs the
that Brown's place of residence was not searchable morning of her death, the connection between his
because the affidavit in his case "contained no ear and his residence, the early morning time frame,
evidence that Brown distributed narcotics from his and the short span of time between receiving the
home, that he used it to store narcotics, or that any call from Ms, Dobbins' and arriving at her home,
suspicious activity had taken place there" ... or there was a sufficient probability or likelihood that
"that a reliable confidential informant had at least some evidence of his alleged drug
purchased drags there, that the police had ever trafficking would be found at the subject property.
conducted surveillance at Brown's home, or that the Therefore, based on Williams, and the cases cited
recorded drug conversation linked drug trafficking therein, and accounting for the factual differences
to Brown’s residence." Brown at 382-83. Also between Mr. Sumtin’s affidavit and the Brown
missing in the Brown case was any evidence that affidavit, this Court cannot say that the issuing
Brown had recently sold drugs, that his car was judge committed clear error in finding probable
directly tied to the investigation, that his ear had cause to issue the search warrant.
been parked at his residence, or |*9| that there
were any suspicious communications tying him to In addition, even if the nexus between the conduct
the crime being investigated. The only facts upon being investigated and Mr. Sumlm's residence was
which any suspicion was founded were that he was not sufficiently strong to establish probable cause
found with two cell phones, and $4813 in cash; his to search, the officers executing the search warrant
car was at the house of another dealer: the drug were entitled to rely on its validity', once it |*TI|
dogs alerted on his ear, though no drugs were found was signed by the issuing judge. United States v.
in the vehicle; and, he had a past conviction for Boss, 456 U.S. 798, 823, n. 32, 102 S. Ct. 2157, 72
distribution of marijuana, and an acquittal on L. Ed. 2d 572 (1982); Leon. 468 U.S. at 922.
another drug charge. There was literally no Therefore, this court cannot suppress the evidence
information in that case that raised an inference that uncovered during the search unless it finds that the
he might have evidence related to the crime being affidavit was so deficient that the officers executing
investigated at his residence.
the warrant were not acting in good faith. See,
United States v. Leon. 468 U.S. 897. 104 S. Ct,
Hie facts of this case, however, do show a 3405, 82 L. Ed. 2d 677 (1984); United States v.
connection between the Defendant's alleged drug Bowling, 900 F.2d 926, 931 (6th Cir. 1990).
i

Sumiin Exhibit D4

1

.

Page 5 of5
201? U S. Dtst LEXiS 13S906, “11

Although Mr. Sumliit claims that the affidavit is "so
Jacking in indicia of probable cause as to render
official belief in its existence entirely
unreasonable,1' thereby rendering its execution an
act of had faith, the evidence does not support such
a finding. Leon, 468 U.S, at 922-923. As set forth
above, based on the evidence that die Defendant
was Ms. Dobbin's drug dealer, he drove the
Chrysler to visit her after she requested drugs the
morning of her death, the connection between his
car and his residence, the early morning time frame,
and the short span of time between receiving the
call from Ms. Dobbins' and arriving at her home, an
officer executing the warrant would have no
objective reason to doubt its validity'. Therefore,
even if the affidavit did not provide a sufficient
basis upon which the judge could hnvc found
probable cause, neither was it so deficient that a
reasonable officer would have reason to believe
that the issuance of the warrant was ’’entirely 1*121
unreasonable," and doubt the validity of the judge's
decision.

CONCLUSION
For all of the reasons set forth above, Mr. Sumlin’s
Motion to Suppress Evidence is DENIED. IT IS SO
ORDERED.
fs? Donald C. Nugent
DONALD C, NUGENT
United States District Judge
DATED: August 29, 2017
f’»nt nl Ihrt

/

i

Sumlin Exhibit D5

i

